                    Third Quarter FY 2010 OIG Summary Report on the Survey of FCS Institutions
                                        Regarding the Examination Function
_______________________________________________________________________________________________________



                                Third Quarter Fiscal Year (FY) 2010
                                     (April 1 – June 30, 2010)

   Office of Inspector General’s (OIG) Survey of Farm Credit System (FCS) Institutions
                      Regarding the Agency’s Examination Function

Introduction

Based on the interface FCS institutions had with the Agency's examination function during the
period April 1 – June 30, 2010, the Office of Examination (OE) identified 12 FCS institutions
that were in a position to provide meaningful survey responses.

The OIG sent surveys to those 12 institutions on July 23. A follow-up email was sent to
nonresponding institutions on August 18. Of the 12 institutions surveyed, 11 submitted
completed surveys. One institution respectfully declined to complete the survey.

The OIG will continue to provide an email report to you based on each FY quarter-end, i.e.,
December 31, March 31, June 30, and September 30, so that you may timely take whatever
action you deem necessary to address the responses. The fourth quarter report as of
September 30 will continue to include FY summary data.

The survey asks respondents to rate the nine survey statements from "1" (Completely Agree)
to "5" (Completely Disagree). The rating options are as follows:

        Completely Agree                1
        Agree                           2
        Neither Agree nor Disagree      3
        Disagree                        4
        Completely Disagree             5

There is also an available response of “6” (Does Not Apply) for each survey statement.

Narrative responses are provided verbatim, except that any identifying information has been
removed and any grammatical or punctuation errors may have been corrected. Any narrative
in “brackets” is explanatory information provided by the OIG based on communication with the
institution.

Survey Results – Third Quarter FY 2010

Average numerical responses to survey statements 1 - 9 ranged from 1.5 to 2.0.

                        Average Numerical Responses to Survey Statements 1 – 9
               rd                              nd                              st
             3 Qtr                            2 Qtr                          1 Qtr
            1.5 – 2.0                          1.8 – 2.4                         1.8 – 2.1




September 14, 2010
                       Third Quarter FY 2010 OIG Summary Report on the Survey of FCS Institutions
                                           Regarding the Examination Function
   _________________________________________________________________________________________________________


   The average response for all survey statements was 1.8.

                                  Average Response for all Survey Statements
                     rd                            nd                                  st
                3 Qtr                            2 Qtr                                1 Qtr
                 1.8                                 2.1                               1.9

   The above represents a slight improvement in the average numerical ratings this quarter.
   There were no “5” (Completely Disagree) ratings and only three ratings of “4” (Somewhat
   Disagree) with respect to the survey statements.

   The majority of comments on the examiners and the examination process are positive.
   However, survey statement 9 received several very negative comments. The first bullet under
   question 10b, which asks what aspects of the examination process did responders find least
   beneficial, seemed particularly significant. All negative comments of any degree are color
   coded in red and should provide opportunities for you to refine examination methodology and
   communications, and examiner training.

   Survey item 10a asks for feedback on the most beneficial aspects of the examination process.
   Consistent with prior quarters’ responses to this survey item, many very positive comments
   were provided about the examiners and the examination process.

   Survey item 11 asks for any other comments. Most were positive with one being somewhat
   negative.

   Responses to Survey Statements 1–9

                                            Examination Process

   Survey Statement 1:               The scope and frequency of examination activities focused on
                                     areas of risk to the institution and were appropriate for the size,
                                     complexity, and risk profile of the institution.

       Average Response:             1.9 (second and first quarters were 1.8)

       Comments:
               •          The frequency seemed a little more often than necessary in view of the
                          institution’s current excellent credit quality and financial position.
                      •   The institution has received an examination letter, its statutory examination
                          report, and an interim activity examination. Throughout each of the various
                          examinations, the focus has been upon safety and soundness and
                          regulatory compliance. The reports that have been issued clearly and
                          concisely conveyed the results of all findings in those areas, and the
                          accompanying recommendations were appropriate, well reasoned, and fully
                          supportable. In both the various written reports and personal interactions,
                          examination staff displayed absolute professionalism and competence. The
                          institution fully acknowledges the pivotal role played by FCA in illuminating
                          the internal weaknesses which gave rise to the adverse conditions, and for
                          the supportive environment it has adopted to facilitate the corrective
                          measures necessary to repair the damage.


September 14, 2010                                                                                         2
                       Third Quarter FY 2010 OIG Summary Report on the Survey of FCS Institutions
                                           Regarding the Examination Function
   _________________________________________________________________________________________________________


                     •   Sampling of lease portfolio adequately addressed size, industry exposure,
                         complexity, and credit risk.
                     •   Examinations conducted in 2009 were limited examinations that generally
                         focused on areas of greater risk but not necessarily our association’s risk.
                     •   The interim communications and the Report of Examination appropriately
                         focused on the key risks of the institution.

   Survey Statement 2:              The examination process helped the institution understand its
                                    authorities and comply with laws and regulations.

       Average Response:            1.7 (second quarter was 2.2, first quarter was 1.9)

       Comments:
               •         From this exam it became apparent FCA had changed directions on a very
                         confusing area – ‘other credit needs.’ Earlier FCA communications came
                         out urging institutions to expand their lending in the other credit needs area,
                         and in this exam we found FCA had not intended we go as far as what we
                         thought was being suggested by earlier communications. The system needs
                         to simplify this whole area, because as it is laid out today, loan officers have
                         a very hard time early in a new lending relationship process determining
                         whether the request is eligible for anyone who is not a full time farmer.
                     •   The institution has received an examination letter, its statutory examination
                         report, and an interim activity examination. Throughout each of the various
                         examinations, the focus has been upon safety and soundness and
                         regulatory compliance. The reports that have been issued clearly and
                         concisely conveyed the results of all findings in those areas, and the
                         accompanying recommendations were appropriate, well reasoned, and fully
                         supportable. In both the various written reports and personal interactions,
                         examination staff displayed absolute professionalism and competence. The
                         institution fully acknowledges the pivotal role played by FCA in illuminating
                         the internal weaknesses which gave rise to the adverse conditions, and for
                         the supportive environment it has adopted to facilitate the corrective
                         measures necessary to repair the damage.
                     •   Appreciate the interaction and open dialogue as it relates to authorities and
                         FCA regulations.
                     •   The overall positive results of the examination appeared to support that the
                         institution understands its authorities and complies with laws and
                         regulations.
                     •   Current compliance issues including areas where clarification was needed
                         were discussed with FCA throughout the examination period.




September 14, 2010                                                                                          3
                       Third Quarter FY 2010 OIG Summary Report on the Survey of FCS Institutions
                                           Regarding the Examination Function
   _________________________________________________________________________________________________________



   Survey Statement 3:              The results and recommendations of the examination process
                                    covered matters of safety and soundness, and compliance with
                                    laws and regulations.

       Average Response:            1.9 (second and first quarters were 1.9)

       Comments:
               •         The institution has received an examination letter, its statutory examination
                         report, and an interim activity examination. Throughout each of the various
                         examinations, the focus has been upon safety and soundness and
                         regulatory compliance. The reports that have been issued clearly and
                         concisely conveyed the results of all findings in those areas, and the
                         accompanying recommendations were appropriate, well reasoned, and fully
                         supportable. In both the various written reports and personal interactions,
                         examination staff displayed absolute professionalism and competence. The
                         institution fully acknowledges the pivotal role played by FCA in illuminating
                         the internal weaknesses which gave rise to the adverse conditions, and for
                         the supportive environment it has adopted to facilitate the corrective
                         measures necessary to repair the damage.
                     •   The examination process appropriately included consideration of safety and
                         soundness and compliance issues.


   Survey Statement 4:              Examiners were knowledgeable and appropriately applied laws,
                                    regulations, and other regulatory criteria.

       Average Response:            1.8 (second quarter was 2.1, first quarter was 1.9)

       Comments:
               •         Due to the Institution’s excellent credit quality and financial position, it has
                         helped to train new FCA employees, so they understandably were not as
                         knowledgeable. However some seasoned employees were not able to
                         accurately understand a loan relationship.
                     •   Additionally, and perhaps more importantly, the FCA staff with whom the
                         institution interacted were cognizant of the operational realities and
                         challenges ahead that proper remediation efforts would entail. This
                         understanding afforded the institution the ability to undertake the more time
                         consuming, but more permanent and lasting, task of focusing upon changes
                         necessary to address the root causes of the deficiencies in the institution.
                     •   However, while we are happy to provide space in our facility for the FCA to
                         bring inexperienced examiners into our institution for training purposes, it
                         appears that many if not all of the examinations were used as a training
                         ground for new FCA examiners.
                     •   Senior examiners had sufficient knowledge. This was “training” for several
                         new-hire examiners.
                     •   The examination team was experienced and professional. Team members
                         had an understanding of the laws and regulations, but were less
                         knowledgeable in finance areas.


September 14, 2010                                                                                          4
                       Third Quarter FY 2010 OIG Summary Report on the Survey of FCS Institutions
                                           Regarding the Examination Function
   _________________________________________________________________________________________________________


                              Communications and Professionalism

   Survey Statement 5:              Communications between the Office of Examination staff and the
                                    institution were clear, accurate, and timely.

       Average Response:            1.6 (second quarter was 2.3, first quarter was 1.9)

       Comments:
               •         Very good communications throughout the year. Examination team was
                         open to questions and responsive.
                     •   The institution’s board valued most highly the face-to-face interaction with
                         examination staff. While the various examination reports and related
                         correspondence were excellently written and comprehensive, the ability to
                         meet personally with the examiners was of great benefit to the board and
                         new management in order to benefit from the “context” as a necessary
                         supplement for creation of accurately developed rehabilitation strategies.
                         Additionally, the board found the interim communications between
                         examination activity that it had with FCA staff to be particularly beneficial,
                         and especially the pre-examination entrance conference and discussions.

                         Additionally, we compliment the immediate availability of all examination
                         staff from RSD [Risk Supervision Division]. Regardless of their location or
                         travel status, they could always be reached and never failed to respond to
                         management or board members immediately whether by email or telephone.
                     •   Coordination remains very good.
                     •   Yes.
                     •   Ongoing communication throughout the examination period was appropriate.


   Survey Statement 6:              Examination communications included the appropriate amount
                                    and type of information to help the board and audit committee
                                    fulfill their oversight responsibilities.

       Average Response:            1.5 (second quarter was 2.1, first quarter was 1.9)

       Comments:
               •         The board valued most highly the face-to-face interaction with examination
                         staff. While the various examination reports and related correspondence
                         were excellently written and comprehensive, the ability to meet personally
                         with the examiners was of great benefit to the board and new management
                         in order to benefit from the “context” as a necessary supplement for creation
                         of accurately developed rehabilitation strategies. Additionally, the board
                         found the interim communications between examination activity that it had
                         with FCA staff to be particularly beneficial, and especially the pre-
                         examination entrance conference and discussions.
                     •   In the areas reviewed, the FCA examination results verified that the board
                         and the audit committee process fulfilled their oversight responsibilities.
                     •   Communication with the Board and Audit Committee was timely and
                         appropriate. Examination communications provide value to the governance
                         of the institution.

September 14, 2010                                                                                         5
                       Third Quarter FY 2010 OIG Summary Report on the Survey of FCS Institutions
                                           Regarding the Examination Function
   _________________________________________________________________________________________________________


   Survey Statement 7:              The examiners were organized and efficiently conducted
                                    examination activities.

       Average Response:            1.8 (second quarter was 2.4, first quarter was 2.0)

       Comments:
               •         Teams seemed well prepared.
               •         Efficiency seems to be lacking. A lot of time spent deeply analyzing risk
                         rating 4 or 5 loans seems like an inefficient use of time. Seems more phone
                         conferences vs. on-site visits would be adequate in some cases.
                     •   All FCA staff, whether from the Risk Supervision Division or the Examination
                         Division, were professional in the truest sense of that meaning. They
                         conducted their activities with efficiency and effectiveness, with no disruption
                         to daily operations.
                     •   The EIC effectively conveyed the scope of the examination prior to the
                         examination and the staff was generally prepared to conduct the review in a
                         timely manner.
                     •   The ongoing nature of examination activities involved frequent submission of
                         information and materials to the examiners throughout the period and
                         provided multiple feedback opportunities. One examiner lacked in
                         professionalism.

   Survey Statement 8:              Examiners fairly considered the views and responses of the
                                    board and management in formulating conclusions and
                                    recommendations.

        Average Response:           1.5 (second quarter was 2.2, first quarter was 2.0)

        Comments:
               • Listened to our concerns. Adjusted conclusions when other facts were
                  presented.
               • Additionally, and perhaps more importantly, the FCA staff with whom we
                  interacted were cognizant of the operational realities and challenges ahead
                  that proper remediation efforts would entail. This understanding afforded us
                  the ability to undertake the more time consuming, but more permanent and
                  lasting, task of focusing upon changes necessary to address the root causes
                  of the deficiencies in the institution.
               • Relationship and communication remains very good.
               • We appreciate the opportunities provided to share views and pursue mutual
                  understanding of examination issues, conclusions, and recommendations.

   Survey Statement 9:              FCS-wide examination guidance from the Office of Examination
                                    (e.g., examination bulletins, informational memoranda, etc.) was
                                    timely, proactive and helpful.

        Average Response:           2.0 (second quarter was 2.2, first quarter was 2.1)

        Comments:
               • Agree. However, the regulator needs to consider the impact
                  communications has on boards and management. Well intentioned

September 14, 2010                                                                                          6
                       Third Quarter FY 2010 OIG Summary Report on the Survey of FCS Institutions
                                           Regarding the Examination Function
   _________________________________________________________________________________________________________


                         comments described as “suggestions” can lead to unnecessary work. There
                         is a cost benefit to all of these ideas, and because risk profiles of each
                         institution are quite different, what may be needed in one is excessive in the
                         other.
                     •   Sometimes guidance is for a few institutions but is broadcast over the entire
                         System. Just like the differential analysis done in certain credit situations so
                         could the guidance be.
                     •   The number and detail of informational memoranda has increased
                         significantly. While we recognize that the risk profile of the System has
                         changed, as has the regulatory/political environment, we do encourage the
                         agency to consider whether System wide proscriptive direction is always
                         necessary, particularly when it is precipitated by the actions of one or a very
                         few organizations.
                     •   Effective sharing of information and insight on areas of concern focus of
                         upcoming examinations.
                     •   Examination bulletins and informational memorandums are generally
                         beneficial and well received. However, the FCA tends to require/apply
                         guidance to all institutions regardless of the size, complexity, operating
                         structure and expertise respectively.
                     •   Informational memorandums are being published very frequently with
                         general information. Due to general nature of many, this may lead to
                         overlooking the most important.
                     •   Guidance regarding Office of Examination interpretations and current issues
                         provides insight that is helpful. These communications provide an
                         opportunity for institutions to assess their activities and possibly achieve
                         compliance in a proactive manner. It is important that such guidance
                         remains focused on regulatory compliance and safety and soundness
                         issues. The stress study direction from FCA has been inconsistent and
                         poorly handled.

                     Responses to Additional Survey Items 10a, 10b, and 11

   Survey Item 10a:         What aspects of the examination process did you find most beneficial?

                     •   Interaction with the examiners on site. Also the ability to ask questions
                         throughout the year. We also appreciate having most of the exam team being
                         made up of examiners who know our institution. We have to spend less time
                         educating new examiners on how we manage risk, when a majority of the
                         exam team are familiar with our shop.
                     •   FCA examinations help us to stay up to date with changes in regulations and
                         FCA’s interpretation of regulations. Offered some good ideas on how to
                         manage risk in the Portfolio.
                     •   The FCA examination staff appropriately and accurately identified the
                         weaknesses in the operations of the institution. However, and more critically,
                         the examination staff issued a report which identified the “root causes” which
                         were giving rise to and creating the environment for those weaknesses.
                         Because of that, we were able to treat the actual problem, as opposed to only
                         the symptoms, thus enabling an actual deeper change as opposed to only “on
                         the surface.”
                     •   Quality of the team and their willingness to discuss different points of view.

September 14, 2010                                                                                          7
                       Third Quarter FY 2010 OIG Summary Report on the Survey of FCS Institutions
                                           Regarding the Examination Function
   _________________________________________________________________________________________________________


                     •   Interaction and dialogue with the examiners are always informative and
                         appreciated.
                     •   The examination process identified Best Practices which we generally find
                         beneficial.
                     •   Validation to the Board of internal review and controls.
                     •   Risk identification, internal controls and more involvement of the board.
                     •   The most beneficial aspects have been communication about areas of focus
                         and issues identified by the agency. This avoids surprises and provides for
                         timely consideration of these matters.

   Survey Item 10b:         What aspects of the examination process did you find least beneficial?

                     •   We have a policy or a process which we have had in place for the past 15+
                         exams and it is never questioned by an examiner, and then out of the blue
                         an examiner is saying this policy or this process is not acceptable. How can
                         this be? The regulations did not change. The area has been examined in
                         past exams. This out of the blue shift in how someone in the agency is now
                         interpreting a regulation can have huge impacts back in the marketplace, or
                         in the operations in an institution. We had one or two of these situations
                         occur in this exam.
                     •   Sometimes spent a lot of time discussing specific problems on excellent
                         quality loans that, if viewed in context of the overall loan relationship, are not
                         material.
                     •   Given the circumstances of our institution, there was no part of the
                         examination process that was not beneficial and meaningful to problem
                         identification, assessment, and remediation.
                     •   Although not an extreme hardship, having so many trainees takes more
                         time.
                     •   The exit conference was held with the audit committee and management,
                         however, the audit committee was not informed that their physical presence
                         was needed which became an issue after the meeting. The audit committee
                         was involved in the exit conference via conference call except the chairman
                         of the audit committee attended in person.

   Survey Item 11:          Please provide any additional comments about the examination process
                            and related communications.

                     •   I feel our institution has a good relationship with our EIC and examination
                         team. Because we have worked with a number of the exam teams for 2-3
                         years we develop this type of relationship which is beneficial to our
                         institution, and I also believe beneficial to the exam team. We both want a
                         well run safe and sound lending institution.
                     •   The board valued most highly the face-to-face interaction with examination
                         staff. While the various examination reports and related correspondence
                         were excellently written and comprehensive, the ability to meet personally
                         with the examiners was of great benefit to the board and new management
                         in order to benefit from the “context” as a necessary supplement for creation
                         of accurately developed rehabilitation strategies. Additionally, the board
                         found the interim communications between examination activity that it had

September 14, 2010                                                                                            8
                       Third Quarter FY 2010 OIG Summary Report on the Survey of FCS Institutions
                                           Regarding the Examination Function
   _________________________________________________________________________________________________________


                         with FCA staff to be particularly beneficial, and especially the pre-
                         examination entrance conference and discussions.
                     •   We appreciate the professionalism, knowledge and understanding, and
                         open communication that the staff exhibits.
                     •   Well organized, Considerate. Willing to listen.
                     •   There was some confusion that when the EIC requested an executive
                         session and management left the meeting, the EIC later said the CEO was
                         expected to remain in the meeting but did not express that desire until the
                         examination report was given to the full board.
                     •   Overall, most of the examination process was professionally conducted and
                         communications have been clear and effective.




September 14, 2010                                                                                         9
